Audit Report




OIG-14-008
Management Letter for the Audit of the Community
Development Financial Institutions Fund’s Fiscal Years 2013 and
2012 Financial Statements


December 13, 2013




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL                           December 13, 2013


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audit

            SUBJECT:              Management Letter for the Audit of the Community
                                  Development Financial Institutions Fund’s Fiscal Years 2013
                                  and 2012 Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Community Development Financial Institutions Fund’s (CDFI Fund)
            Fiscal Years 2013 and 2012 financial statements. Under a contract monitored by
            the Office of Inspector General, KPMG LLP (KPMG), an independent certified public
            accounting firm, performed an audit of the CDFI Fund’s financial statements as of
            September 30, 2013 and 2012, and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards and Office of Management and Budget Bulletin No.
            14-02, Audit Requirements for Federal Financial Statements.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the auditors’ reports.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audit at
            (202) 927-5591.

            Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




December 12, 2013


Inspector General
U.S. Department of the Treasury
Washington, DC

Director, Community Development Financial Institutions Fund
Washington, DC

Ladies and Gentlemen:

In planning and performing our audit of the financial statements of the U.S. Department of the Treasury’s
Community Development Financial Institutions Fund (the CDFI Fund), as of and for the year ended
September 30, 2013, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, we considered the CDFI Fund’s internal
control over financial reporting (internal control) as a basis for designing our audit procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the CDFI Fund’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the CDFI Fund’s internal control.
During our audit we noted a certain matter involving internal control and other operational matters that is
presented for your consideration. This comment and the related recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies and are summarized in the attached Appendix A.
The CDFI Fund’s written response to our comment and recommendations (also in Appendix A) has not
been subjected to the auditing procedures applied in the audit of the financial statements and, accordingly,
we express no opinion on the response.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in internal control, policies, or procedures that may
exist. We aim, however, to use our knowledge of the CDFI Fund’s organization gained during our work to
make comments and suggestions that we hope will be useful to you.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
December 12, 2013
Page 2 of 4



We would be pleased to discuss this comment and recommendations with you at any time.
The purpose of this letter is solely to describe a comment and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.
Very truly yours,
                                                                                                 Appendix A




Maintaining Custody of Investment Master Files
During our fiscal year 2013 financial audit of the Community Development Financial Institutions Fund
(CDFI Fund) we tested the accuracy and existence of investments through confirmation testwork.
Specifically, we sent confirmations to the investee and agreed the responses in the confirmation to the
investment information in the Assistance Agreement (AA), share certificate, or and/or CDFI Fund
subledgers. As a result of our procedures, we identified the following instances relating to maintaining
custody of assets.

Of the six items sampled, we identified:

•   One instance where the CDFI Fund transferred the master file to the Federal Record Center (FRC) and
    was unable to provide the master file containing AA, share certificate, and investment schedule to the
    audit team due to the fact that the file was lost in shipping between FRC and the CDFI Fund.
•   Another instance where the CDFI Fund was unable to locate the master file containing AA, share
    certificate and investment schedule.

While many investment master files are kept at the CDFI Fund’s office, master files that have been closed
out are transferred to FRC based on established records retention schedules. Thus, there is a reliance on
the FRC to maintain custody of these files, which in some cases include the original legal instruments.
While the CDFI Fund does utilize a file tracking system, the one missing file was not in the CDFI Fund’s
possession at the time the file tracking system was implemented, and therefore was not included in the
listing of records.

Accordingly, the custody of key legal contracts and evidence of share ownership were not properly and
consistently maintained. Specifically, the CDFI Fund is not consistently assuring custody of master files
that may include share certificates, etc. There is potential that the information within the file may be lost,
forged or destroyed, which could result in inability to prove the ownership of an investment and/or enforce
investment provisions. Additionally, master files themselves may be lost or misplaced due to the improper
custody controls over such assets and records at the CDFI Fund. This may result in difficulty or inability to
prove the ownership of investment. This could also potentially result in overstatement of certain assets in
the CDFI Fund’s balance sheet and the potential of financial loss in cases where original documents are
used for fraudulent purposes.

Recommendations

We recommend that CDFI Fund management:

    1. Implements or revises policies and procedures to maintain custody of investment master files and
       records, including: (i) undertaking to inventory the extent and locales of such files and records,
       specifically those files that relate to assets (loans and investments) that are recorded in the CDFI
       Fund’s financial statements; and (ii) determining the extent to which certain key original
       documents can be maintained securely on-site, including modifying standard operating procedures,
       as applicable to ensure all investment files remain in “active status” for the appropriate time.
                                                                                            Appendix A




   2. Undertake as necessary and legally appropriate, measures with counterparties to suitably void and
      obtain suitable replacement certificates or contracts where original documents have been lost or
      misplaced.

Management’s Response
Management concurs with this finding.

In response to the NFR, the CDFI Fund will:

   1. Inventory the location of loan and investment records that are recorded in the CDFI Fund’s
      financial statements to ensure they reside at their proper site (i.e., CDFI Fund or FRC).
   2. Review and revise, as needed, standard operating procedures to ensure investment files remain in
      the “active status” for the appropriate time.
   3. In instances where original documents have been lost or misplaced, undertake as necessary and
      legally appropriate, such measures to suitably void the lost or misplaced documents, and obtain
      suitable replacement certificates or contracts.
